        Fiscal Year 2009
 Inspector General Statement
             on the
Social Security Administration’s
    Major Management and
   Performance Challenges
          A-02-09-19175




          November 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                            SOCIAL SECURITY
                                  November 6, 2009

The Honorable Michael J. Astrue
Commissioner

Dear Mr. Astrue:

The Reports Consolidation Act of 2000 (RCA) (Pub. L. No. 106-531) requires that
Inspectors General provide a summary and assessment of the most serious
management and performance challenges facing Federal agencies and the agencies’
progress in addressing them. This review is enclosed. RCA requires that the Social
Security Administration (SSA) place the final version of this Statement in its Annual
Performance and Accountability Report.

In FY 2009, we continued our focus on the management and performance challenges
from previous years. Those challenges are listed below.

     •   Social Security Number                •   Internal Control Environment and
         Protection                                Performance Measures
     •   Management of the Disability          •   Systems Security and Critical
         Process                                   Infrastructure Protection
     •   Improper Payments and                 •   Service Delivery and Electronic
         Recovery of Overpayments                  Government

As the FY progressed, the environment in which SSA operated, and its corresponding
challenges, shifted. For example, SSA issued a new strategic plan that identified its
current challenges. In addition, SSA was provided new funding and accountability
requirements under the American Recovery and Reinvestment Act of 2009 (ARRA).
Accordingly, we reevaluated the top management and performance challenges facing
the Agency and developed a new list of eight challenges.

• Implement ARRA Effectively and               • Invest in Information Technology
    Efficiently                                  Infrastructure to Support Current and
•   Reduce the Hearings Backlog and              Future Workloads
    Prevent its Recurrence                     • Strengthen the Integrity and
•   Improve the Timeliness and Quality           Protection of the Social Security
    of the Disability Process                    Number
•   Reduce Improper Payments and               • Improve Transparency and
    Increase Overpayment Recoveries              Accountability
•   Improve Customer Service


            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
Page 2 – The Commissioner

Many of the issues highlighted in our previous list of management challenges are
addressed in our new list. For example, the disability process, Social Security number
protection, improper payments, customer service, and information technology
infrastructure are recurring themes. They continue to be on our list since we believe
they continue to be challenges for SSA. However, these management challenges have
been renamed in a manner we believe better defines the action needed for improved
performance in these areas.

Our updated list also includes some new challenges. For example, ARRA created new
and critical workloads for the Agency, such as a one-time recovery payment of $250 to
SSA beneficiaries. Paying millions of individuals accurately is a challenge on its own.
This is compounded by the additional challenge of completing this new task while
simultaneously addressing the Agency’s many other workloads. Also, the President has
emphasized the need for transparency and accountability in the Government. The
Administration is developing an Open Government Directive that will instruct executive
departments and agencies to take specific actions toward bringing greater openness in
Government, and the Agency will need to adhere to the Directive once it is released.

Further, we have highlighted a management challenge related to the hearings backlog.
We have discussed this challenge in previous years but as part of the overall disability
workload, not as a separate challenge. Given the magnitude of the hearings backlog,
and the plans the Agency has put in place to address this workload, we believe it is
appropriate to have a separate management challenge.

My office will continue to focus on these issues in FY 2010. We will also continue to
assess SSA’s operations and the environment in which it operates to ensure our
reviews focus on the most salient issues facing the Agency.

I congratulate you on the progress made in FY 2009 in addressing these challenges. I
look forward to working with you to continue improving the Agency’s ability to address
these challenges and meet its mission efficiently and effectively.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General
   Implement the American Recovery and Reinvestment Act
                Effectively and Efficiently
On February 17, 2009, President Obama signed into law the American Recovery and
Reinvestment Act of 2009 (ARRA) (Pub. L. No. 111-5). The Social Security
Administration (SSA) was provided funds under ARRA to address three major efforts.

• $500 million was designated to replace SSA’s National Computer Center (NCC).
• $500 million was designated to process disability and retirement workloads,
  including information technology (IT) acquisitions and research in support of these
  workloads.
• $90 million was designated to reimburse costs for processing a one-time economic
  recovery payment (ERP) of $250 to millions of qualified individuals receiving Social
  Security and Supplemental Security Income (SSI) payments.

In the Office of Management and Budget’s (OMB) initial implementing guidance for
ARRA (OMB M-09-10), the following requirements were established to meet crucial
accountability objectives.

• Funds are awarded and distributed promptly, fairly, and reasonably.
• The recipients and uses of all funds are transparent to the public, and the public
  benefits of these funds are reported clearly, accurately, and timely.
• Funds are used for authorized purposes, and instances of fraud, waste, error, and
  abuse are mitigated.
• Projects funded under ARRA avoid unnecessary delays and cost overruns.
• Program goals are achieved, including specific program outcomes and improved
  results on broader economic indicators.

We believe the replacement of the NCC and having the systems capacity needed to
meet its workload are challenges for the Agency. In our May 2009 report, The Social
Security Administration's Ability to Address Future Processing Requirements, we asked
the Agency to focus its efforts related to the new NCC on detailed plans (1) to acquire,
construct and operate a new Data Center; (2) to estimate costs for the use and/or
disposal of the existing NCC; and (3) for IT requirements for the next 5, 10, and
20 years. Further, SSA should identify the underlying factors that allowed the existing
NCC to deteriorate to its current condition and implement the necessary controls to
prevent this situation from recurring at the new NCC.

Another challenge faced by SSA was to assist in providing one-time ERPs of $250 to
certain adult Old-Age, Survivors and Disability Insurance (OASDI) and SSI recipients.
SSA was required to certify which beneficiaries were entitled to the ERPs. SSA had to
ensure the beneficiaries met a number of criteria, including that they resided in 1 of the
50 States, the District of Columbia, Puerto Rico, Guam, the U.S. Virgin Islands,
American Samoa, or the Northern Mariana Islands. Also, to be eligible for the one-time


FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                    1
payments, the beneficiaries had to be eligible for benefits for any of the 3 months before
the month of enactment (that is, November 2008, December 2008, and January 2009).
If individuals received both OASDI and SSI, they would receive only one $250 payment.
In addition, SSA had to process its unique payments, prepare payment files for the
Department of the Treasury (Treasury), annotate payments to its program files, and
prepare beneficiary notices. Lastly, SSA was responsible for any post-certification
actions (for example, non-receipt reports, returned payments, and stop-payment
actions) for the ERPs issued to its beneficiaries.

SSA received $90 million to be used for the costs associated with administering the
ERPs. One of the challenges identified by SSA was to properly account for the use of
the $90 million in ARRA funding to cover the administrative costs involved in identifying,
notifying, and issuing the ERPs to eligible individuals.

SSA Has Taken Steps to Address This Challenge
In response to ARRA and OMB Guidance, SSA developed an ARRA Risk Management
Plan. The Plan outlined the major challenges and risk mitigation activities facing SSA in
implementing the requirements of ARRA. The challenges fell into five major categories:
Overall Recovery Act Implementation, One-Time ERP Administrative Expenses,
One-Time ERP Payments, Disability and Retirement Workloads, and Replacement of
the NCC. The major challenges are further defined by challenges specific to each. For
example, SSA has identified the following challenges for replacement of the NCC.

• Ensure proper overall project management.
• Ensure proper site selection, a proper facility, and infrastructure construction
  oversight.
• Ensure IT investments support SSA's strategic IT vision and plan.
• Ensure the facility complies with the National Environmental Policy Act.
SSA has developed risk mitigation activities to address each of the identified challenges
and has begun to implement them.

SSA has made considerable progress toward meeting its challenge of administering the
ERPs mandated under ARRA. It facilitated the issuance of ERPs to more than
50 million eligible individuals in May 2009, which injected about $13 billion into the
economy. SSA certified these payments to facilitate Treasury’s disbursement within
120 days after the legislation was enacted on February 17, 2009. We found SSA had
taken significant actions to properly identify eligible beneficiaries and develop the
necessary systems and policy changes to ensure payments were disbursed in
accordance with ARRA. In addition, SSA’s planned controls and procedures should
have reduced the significant risk of improper payments or fraud, waste, and abuse.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                2
On May 7, 2009, Treasury began disbursing the economic recovery payments to eligible
beneficiaries—about 5 weeks before the statutory deadline. Before this, SSA
completed a number of actions, including (1) sending notices to about 52.2 million
eligible beneficiaries; (2) adding a Webpage on its Internet site containing a video about
the payment and 34 frequently asked questions; and (3) developing a new national
800-number network message that explained the ERP to callers. However, we
identified a number of matters SSA needed to address related to the ERPs. For
example, SSA’s system to identify, select, and certify the ERPs to Treasury and its
related policies and procedures to administer these payments had not been fully
developed, tested, or documented when SSA began disbursing ERPs. Also, while SSA
took many steps related to the disbursement of ERPs, a small number of the payments
were sent erroneously to deceased and imprisoned individuals.

In reference to SSA’s challenge to properly account for the $90 million provided to
administer the one-time ERP, we found SSA implemented a comprehensive process to
identify and report costs incurred to administer the ERPs. We believe SSA sufficiently
addressed OMB’s requirements, which allowed for transparency and accountability in
the use of ARRA administrative funds and provided SSA the ability to identify and track
the expenditures separately from its regular appropriations. SSA also timely submitted
required weekly reports summarizing administrative costs it incurred.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)               3
Reduce the Hearings Backlog and Prevent its Recurrence
At the forefront of congressional and Agency concern is the timeliness of SSA’s
disability decisions at the hearings adjudicative level. The average processing time at
the hearings level continues to increase—from 293 days at the end of Fiscal Year (FY)
2001 to 491 days at the end of FY 2009. Additionally, the pending hearings workload
grew to 722,822 cases by the end of 2009—up from 392,387 cases at the end of
FY 2001.

The first strategic goal in SSA’s Strategic Plan for FYs 2008-2013 is to reduce the
number of pending hearings to 466,000 by FY 2013, a level that will ensure a sufficient
number of cases is available for hearings while reducing the average processing time to
270 days. While the number of hearings pending has grown greatly over this decade, it
decreased in FY 2009 from approximately 761,000 at the beginning of the FY to almost
723,000 by the end of the FY.

While eliminating the hearings backlog was SSA’s primary focus in FY 2009, it became
more difficult with an increase in hearing requests. In FY 2009, SSA received over
622,000 hearing requests—an increase of over 33,000 requests from FY 2008.
According to the Agency, this is the highest annual total SSA has ever received. ARRA
provided SSA $500 million to process increasing retirement and disability workloads.
The Office of Disability Adjudication and Review (ODAR) was allocated a portion of the
ARRA funds to hire additional staff in FYs 2009 and 2010.

Our July 2009 review, Office of Disability Adjudication and Review Management
Information, determined that if SSA follows its current administrative law judge (ALJ)
hiring plan and the current average ALJ productivity level remains constant, ODAR’s
pending level should fall below the desired pending level by FY 2013. However, we
completed this report before SSA estimated it could receive an additional 350,000
disability applications in FY 2010. Since a number of these applications will be denied
and eventually appealed, the Agency will need to adjust its backlog reduction plans to
ensure it accounts for this increase in workload.

SSA Has Taken Steps to Address This Challenge

Since May 2007, SSA has been implementing a plan to eliminate the backlog of hearing
requests and prevent its recurrence. The plan includes initiatives for (1) compassionate
allowances, (2) improving hearing office procedures, (3) increasing adjudicatory
capacity, and (4) increasing efficiency with automation and improved business
processes.

Compassionate Allowances. The compassionate allowances initiative, implemented
nationwide in October 2008, seeks to identify cases where a disease or condition is so
consistently devastating that SSA can presume a claimant is disabled once a valid
diagnosis is confirmed. SSA launched the expedited decision process covering 50 rare
diseases and cancers.


FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                 4
Improve Hearing Office Procedures. Reducing aged cases is one of the two
initiatives SSA has in place to improve hearing office procedures, the second being
adjudication of cases by Senior Attorneys. Under the aged claim initiative, SSA focused
on eliminating cases 1,000 days or older in FY 2007, cases 900 days or older in
FY 2008, and cases 850 days or older in FY 2009. This initiative has refocused the
hearings process on ensuring the oldest cases are processed first. At the end of
FY 2009, less than 1 percent of hearings pending was 850 days or older. Under the
Senior Attorney program, staff other than ALJs issue fully favorable on-the-record
decisions to expedite the decision and conserve ALJ resources for the more complex
cases and cases that require a hearing. In FY 2009, SSA reported the Senior Attorneys
issued 36,366 decisions.

Our September 2009 review of Aged Claims at the Hearing Level found ODAR’s aged
claim initiative had successfully targeted the oldest pending claims and focused hearing
offices’ efforts on this workload. Moreover, the related initiatives, including realignment
of service areas, case transfers, video hearings, and the National Hearing Centers,
assisted ODAR in processing the aged case backlog. We also noted that the aged
cases had built up over time because of (1) a lack of resources, (2) conflicting workload
priorities, and (3) lost or time-consuming claims. Overall, we found sustained
leadership and focus, clear workload milestones, flexibility in moving workloads
between offices, and use of management information reports has allowed ODAR to
reduce aged claims and return to its earlier policy of hearing the oldest claims first.

Increase Adjudicatory Capacity. SSA has six initiatives aimed at increasing
adjudicatory capacity. One initiative is hiring new ALJs. In FY 2009, $30 million in
ARRA funds was allocated to ODAR. This, in addition to the increased FY 2009 SSA
appropriation, allowed SSA to hire 148 ALJs and 1,009 support staff in hearing offices in
FY 2009 as well as fund additional overtime. We have ongoing work in this area.

Increase Efficiency with Automation and Improved Business Process. SSA has
27 initiatives related to automation and business processes. One initiative was an
electronic file assembly process called ePulling. This initiative involved the
development of customized software to identify, classify, and sort page-level data;
reorganize the images after classification; and identify duplicates. Another initiative is
expanding the use of video equipment at hearings to increase ALJ productivity and
decrease ALJ travel. This video initiative includes a new Representative Video Project,
which will allow claimant representatives to use their equipment to participate in
hearings from their own offices.

Our June 2009 evaluation of Electronic File Assembly reviewed the ePulling initiative
and found ODAR was facing challenges with the accuracy of the ePulling software,
which in turn was increasing case preparation times. In addition, we found ODAR
needed to establish a sufficient assessment methodology for measuring ePulling’s
impact on the hearings process since such a methodology was critical to future
decisions on expanding the use of ePulling to other hearing offices. One of our
recommendations was for SSA to perform a complete assessment of the ePulling



FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                 5
project results before expanding the use of the process in other hearing offices. SSA
agreed with our recommendation, noting that both the Agency and the vendor had
made numerous software enhancements that would be assessed in terms of their effect
on productivity before a decision was made to expand the project. In August 2009,
ODAR management decided to discontinue the ePulling initiative.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)           6
Improve the Timeliness and Quality of the Disability Process
SSA is facing a considerable increase in initial claims receipts because of the declining
economy. At the end of FY 2008, initial claims pending at disability determination
services (DDS) were around 550,000. However, in FY 2009, initial receipts were
approximately 13 percent higher than the previous year. As a result, initial claims
pending grew to about 780,000 cases at the end of FY 2009. SSA expects
350,000 more initial disability claims than first projected for FY 2010 and estimates that
the pending level could reach over 1 million by FY 2010. SSA also estimates that initial
claims will continue to increase and remain at historically high levels for the next several
years.

Along with increased receipts, some DDSs are facing high attrition rates as well as
challenges in hiring due to State hiring freezes and furloughs, all of which impact SSA’s
ability to process the disability workload. Eleven States implemented furloughs
involving DDS employees in FY 2009, and nine states had various restrictions on hiring.
Prior Inspector General work in this area showed that the California DDS will encounter
a reduced capacity of 10 percent due to furlough days. As a result, the processing of
approximately 2,375 disability cases per month would be delayed.

SSA is also facing a large backlog of full medical continuing disability reviews (CDR).
Between FYs 2004 and 2008, the number of full medical CDRs conducted by SSA
decreased by approximately 65 percent. At the end of FY 2009, SSA had a backlog of
approximately 1.4 million CDRs that were due but were not released to the DDSs for
processing, and this number is estimated to increase in FY 2010. The backlog of CDRs
means that beneficiaries who no longer qualify for disability are receiving payments
improperly resulting in the Disability Insurance Trust Fund and General Fund losing
billions of dollars.

SSA Has Taken Steps to Address This Challenge
SSA is developing a multi-year plan to address the increase in initial disability claims
and reduce the initial claims backlog to an optimum level. The multi-year plan provides
for
• increased adjudicatory capacity in the DDSs and Federal processing components;
• improved efficiency through automation;
• expedited IT investments to optimize systems performance;
• expanded use of screening tools to assist in identifying likely allowances; and
• refined policies and business processes to expedite case processing.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                 7
To increase adjudicatory capacity, SSA hired approximately 2,600 DDS employees in
FY 2009. SSA is also looking at alternatives for increasing DDS support staff, including
medical consultants who provide expert advice on disability claims. In addition to DDS
hiring, SSA funded DDS overtime with both its FY 2009 appropriation and ARRA funds.
SSA has also approved Extended Service Teams in Arkansas, Oklahoma, Mississippi,
and Virginia to assist other states in processing disability claim receipts. In addition,
SSA is increasing staffing levels in its Federal components to provide support to DDSs
that are most adversely impacted by the increase in receipts.

As part of this multi-year plan, SSA is refining and expanding the Quick Disability
Determinations (QDD) and compassionate allowance processes to better identify and
fast-track disability claims that are most likely allowances. SSA’s QDD process and
compassionate allowances initiative have provided some claimants more timely
disability decisions and freed up some resources to process the increased number of
disability claims. Prior Inspector General work in this area has shown that QDD was
working as intended with medical determinations for these disability claims being made
generally within the recommended 20-day time frame.

We will also continue to work with SSA to address the integrity of the disability programs
through the Cooperative Disability Investigations (CDI) program. The CDI program's
mission is to obtain evidence that can resolve questions of fraud in SSA's disability
claims. The CDI program is managed in a cooperative effort between SSA's Offices of
Operations, Inspector General, and Disability Programs. Since the program's inception
in FY 1998 through FY 2009, the 20 CDI units, operating in 18 States, have been
responsible for over $1.3 billion in projected savings to SSA's disability programs and
over $816.4 million in projected savings to non-SSA programs.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)               8
               Reduce Improper Payments and Increase
                      Overpayment Recoveries
Workers, employers, and taxpayers who fund the SSA and SSI programs deserve to
have their tax dollars effectively managed. As a result, SSA must be a responsible
steward of the funds entrusted to its care and minimize the risk of making improper
payments. SSA strives to balance its service commitments to the public with its
stewardship responsibilities. However, given the size and complexity of the programs
the Agency administers, some payment errors will occur.

SSA is responsible for issuing timely benefit payments for complex entitlement
programs to about 60 million people. Over the years, SSA has reported high payment
accuracy rates. For example, in FY 2008, SSA reported that 99.7 percent of OASDI
payments was free of overpayment error, and 99.9 percent was free from
underpayment error. Also that year, SSA reported that 89.7 percent of SSI payments
was free from overpayment error and 98.3 percent was free from underpayment error.
Given the large overall dollars involved in SSA’s payments, even the slightest error in
the overall process can result in millions of dollars in over- or underpayments. For
example, for the 5-year period FYs 2004 to 2008:

•   SSA paid $204.5 billion to SSI recipients. Of that total, $16.6 billion was overpaid,
    representing 8.1 percent of outlays. Underpayments during this same 5-year period
    totaled $3.4 billion or the equivalent of 1.7 percent of outlays.

•   SSA paid about $2.3 trillion to Old-Age and Survivors Insurance (OASI)
    beneficiaries. Of that total, $3.7 billion was projected to be overpaid, representing
    0.16 percent of outlays. Underpayments during this same 5-year period were
    projected to be $2.2 billion or the equivalent of 0.10 percent of outlays.

•   SSA paid over $454.8 billion to Disability Insurance (DI) beneficiaries. Of that total,
    $6.3 billion was overpaid, representing 1.4 percent of outlays. Underpayments
    during this same 5-year period totaled $1.8 billion, the equivalent of 0.4 percent of
    outlays.

Additionally, in FY 2008, it took SSA an average of 34 months to recover or waive
overpayments in the SSI program, 18 months for the OASI program, and 42 months for
the DI program.

A January 2009 OMB report, Improving the Accuracy and Integrity of Federal
Payments, noted that 12 Federal programs—including SSA’s OASDI and SSI
programs—accounted for about 90 percent of the improper payments in FY 2008.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                     9
The reduction of improper payments is one of SSA’s key strategic objectives. Further,
Congress passed the Improper Payments Information Act of 2002 (Pub. L. No. 107-
300), and OMB issued guidance (OMB M-06-23) clarifying the definition of an improper
payment and its authority to require that agencies track programs with low error rates
(that is, less than 2.5 percent), but significant improper payment amounts.

We issued a report in April 2006, Overpayments in the Social Security Administration’s
Disability Programs, where we estimated that SSA had not detected about $3.2 billion in
overpayments and paid about $2.1 billion in benefits annually to potentially ineligible
beneficiaries. Although SSA tries to achieve a balance between stewardship and
service, it is a challenge because of the funding needed for the Agency to conduct an
adequate number of medical and work-related CDRs. Although the Agency had special
funding for CDRs in FYs 1996 through 2002 and SSA’s data show that CDRs save
about $10 for every $1 spent to conduct them, the Agency has cut back on this
workload over the past several years. We are completing work that will determine the
financial impact of SSA conducting fewer full medical CDRs.

Similarly, the number of SSI redeterminations conducted by SSA has substantially
decreased although the number of SSI recipients has increased. A redetermination is a
review of a recipient’s non-medical eligibility factors, such as income, resources, and
living arrangements. No individual shall be considered eligible for SSI payments for any
period during which they have income or resources that exceed the allowable amounts
established under the Social Security Act. Between FYs 2003 and 2009,
redeterminations decreased by more than 40 percent. We estimated in a July 2009
report, Supplemental Security Income Redeterminations, that SSA could have saved an
additional $3.3 billion during FYs 2008 and 2009 by conducting redeterminations at the
same level it did in FY 2003.

SSA Has Taken Steps to Address This Challenge
SSA has identified the major causes of improper payments and has taken steps to
address them. For example, one of the major causes of improper payments in the
OASDI program is errors attributed to computations. SSA developed automated tools
to address the more troublesome computation issues, which include calculations
involving the Windfall Elimination Provision. As another example, SSA completed a
feasibility test and had begun to roll-out large-scale monthly wage reporting using touch-
tone and voice recognition telephone technology. This addresses one of the major
causes of improper payments in the SSI program, which is the failure of a recipient or
representative payee to provide accurate and timely reports of new or increased wages.
SSA has taken additional steps to address another leading cause of improper payments
in the SSI program. SSA has used the Access to Financial Institutions process in New
York, New Jersey and California since FY 2007 to reduce SSI payment errors by
identifying undisclosed financial accounts with balances that place recipients over the
SSI resource limit. SSA hopes to expand the use of this process in FY 2010 if
additional funding is available.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)              10
SSA uses a variety of methods to collect the debt related to overpayments. Collection
techniques include internal methods, such as benefit withholding and billing and follow-
up. In addition, SSA uses external collection techniques authorized by the Debt
Collection Improvement Act of 1996 (Pub L. No. 104-134) for OASDI debts and the
Foster Care Independence Act of 1999 (Pub. L. No. 106-169) for SSI debts. These
debt collection tools include the Treasury Offset Program, credit bureau reporting,
administrative wage garnishment and Federal Salary Offset.

SSA has also worked to improve its ability to prevent over- and underpayments by
implementing our audit recommendations. For example, in March 2008, we issued a
report, Follow-up on the Impact on the Social Security Administration’s Programs When
Auxiliary Beneficiaries Do Not Have Their Own Social Security Numbers, which
identified $7.6 million in overpayments to auxiliary beneficiaries because SSA's records
did not have their SSNs on its payment records. As a result, the Agency's data
matching efforts did not detect that these individuals were incorrectly paid. When we
issued the report, SSA had already recovered $3.1 million (41 percent) of the improper
payments.

We also issued a report in April 2009, Follow-Up on Disabled Title II Beneficiaries with
Earnings Reported on the Master Earnings File, where we estimated that approximately
$3.1 billion was overpaid to about 173,000 disabled beneficiaries because of work
activity. Although the Agency identified about $1.8 billion of these overpayments to
approximately 141,000 beneficiaries, we estimated about $1.3 billion in overpayments
to approximately 49,000 beneficiaries went undetected by SSA. As of March 2009, the
Agency had successfully recovered about $615 million of the approximately $3.1 billion
overpaid because of work activity. Furthermore, we estimated about 24,000 of the
49,000 beneficiaries were no longer entitled to disability benefits because of work
activity. Finally, we estimated SSA would continue to incorrectly pay about $382 million
annually to individuals no longer entitled to disability benefits if it does not take action.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                 11
                         Improve Customer Service
SSA acknowledges it is at a critical moment concerning its ability to fulfill its mission of
delivering quality customer service to the public. SSA is challenged by many factors,
including shifting demographics, growing workloads, changing customer expectations,
and an aging workforce. Because of the recent economic downturn and the leading
edge of baby boomer retirements, SSA is receiving increasing numbers of retirement
and disability claims. SSA is also finding that the public expects it to provide services in
new ways made possible by technology.

The increasing workloads and loss of expertise due to the retirement of its employees,
will strain SSA’s ability to deliver the quality service the public expects. SSA’s projected
retirement of its employees presents a significant challenge to its customer service
capability. SSA estimates that 53 percent of its employees, including 70 percent of its
supervisors, will be eligible to retire by 2017. This loss of institutional knowledge may
adversely affect SSA’s ability to deliver quality service to the public. Over the last few
years, the public has dealt with longer waits in local field offices and has faced
increased telephone busy rates.

Providing oversight to ensure representative payees properly manage Social Security
benefits of vulnerable beneficiaries is a critical customer service performed by SSA.
SSA appoints a representative payee who receives and manages the benefit payments
for beneficiaries who are not able to manage or direct the management of their finances
because of their youth or mental or physical impairment. Our reviews continue to
identify problems with SSA’s Representative Payment program. Specifically, we found
(1) SSA needs to improve its controls to prevent fugitive felons from serving as
representative payees; (2) SSA should use certain characteristics to identify
representative payees who have an increased risk of benefit misuse; (3) SSA staff could
bypass systems controls and establish direct payments for concurrently entitled
beneficiaries who had representative payees; and (4) specific individual and
organizational representative payees had not complied with SSA’s policies and
procedures.

SSA Has Taken Steps to Address This Challenge
One of the Agency’s priorities in addressing its customer service challenges is to
increase the use of technology to improve the speed, accuracy, and efficiency of
operations as well as provide the public with more service choices. For example, the
Agency released a new Internet application, iClaim, to simplify and shorten the on-line
filing process and eliminate field office visits. In addition, SSA developed an Internet-
based tool that will provide claims status online, which the Agency believes will reduce
the 2 million calls received annually requesting case status. In January 2009, SSA
launched its Retire Online public service announcement campaign to promote SSA’s
new online application for retirement benefits. Patty Duke has volunteered to serve as a
spokesperson to encourage the baby boomer generation to file for retirement benefits
online.


FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                12
SSA has seen considerable growth in the public’s use of electronic services. For
example, the use of the Retirement Estimator, which allows SSA’s customers to obtain
an immediate and personalized estimate of their Social Security retirement benefits, has
tripled from about 687,000 to 2.1 million, and on-line retirement applications have
increased by approximately 54 percent since FY 2008.

To address its human capital challenges, SSA has implemented various strategies,
such as hiring thousands of new employees, conducting leadership development
programs, providing ongoing refresher training to managers and employees, and
implementing a national coaching program. Additionally, the Agency reported it is using
kiosks and personal computers in SSA field offices to provide modern, fast, and user-
friendly service. Further, the Agency merged, expanded, realigned, and established
new components within the Agency. For example, a new office was established to
assess and improve notices issued to the public, which is the most common form of
service delivery, totaling 350 million notices, annually.

For its representative payee program, SSA has studies underway to identify indicators
of representative payee misuse. It also developed a new representative payee system,
implemented a policy change to require management approval when selecting
representative payees with a prior history of misuse, and developed an on-line
representative payee accounting for benefits. Additionally, SSA reported it performed
reviews of problem representative payees and corrected representative payee
information in the Agency’s records. Further, SSA reported it plans to change its
current computer matching process to ensure fugitive felon alerts are generated and
resolved, which should help prevent them from serving as representative payees.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)            13
Invest in Information Technology Infrastructure to Support
               Current and Future Workloads
SSA will not be able to manage its current workloads and those projected for the future
without the proper IT infrastructure. SSA has less than 75 percent of the employees it
had 25 years ago, despite core workloads increasing by 50 percent and new workloads
being added. The Agency uses a variety of technologies, including telephone service,
the Internet, and videoconferencing to deliver service to its customers. However, the
Social Security Advisory Board and others have concerns regarding SSA’s physical
infrastructure, backup and recovery, processing systems, and telephone service.
Another issue of concern is the level of security SSA has over its IT systems and the
sensitive data they store.

Physical Infrastructure and Backup and Recovery. SSA is confronted with two
critical issues: the vulnerability of its main computer data processing facility—the
NCC—and its backup and recovery capability. SSA received over $500 million from
ARRA to replace the NCC. The NCC vulnerability stems from the fact that, while its
computing capacity has been expanded over its 30 years of operations, increasing
workloads and expanding telecommunication services have severely strained its ability
to support the Agency’s business. SSA estimates that by 2012, as a stand-alone data
center, the NCC will no longer be able to support this expanding workload. Additionally,
as noted in an April 2009 Social Security Advisory Board report, significant structural
problems and electrical capacity issues have developed that make construction of a
new primary computer center imperative. However, the Agency has projected that an
NCC replacement will not be brought online before 2015. Finally, current disaster
recovery plans use a private company’s backup and recovery facilities at an off-site
location that allows for the recovery of only 25 to 30 percent of the Agency’s production
capacity.

Processing Systems are Overburdened. A significant part of the problem with SSA’s
processing systems is the consequence of a piecemeal approach to systems planning
and development. Most software applications have been developed in vertical
stovepipes, usually to address a particular program need, which has resulted in the
primary claims processing systems not being integrated. The system designed to
process OASDI claims is separate from the system used to process SSI claims, most of
which are claims for disability benefits. As a result, the Agency’s front-line employees
have to process case information through an assortment of disjointed tools that
sometimes look different from one another, and more significantly, may not propagate
data across systems. As a result, identifying information, employment data, contact
addresses, etc. may have to be entered as many as three or four times when an
individual is applying for disability and SSI.

Modernization of the Agency’s processing systems is constrained by an underlying
problem. The foundation of SSA’s IT infrastructure is an outdated database
management system, called the Master Data Access Method (MADAM), which was



FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)              14
developed in-house in the 1980s. Continued reliance on MADAM exposes the Agency
to significant risks, including delays in its ability to improve its systems functionality.

Inadequate Telephone Service. One of the original goals of the national 800-number
was to free staff time in local offices to handle more complex issues. In FY 2009, over
82 million calls were placed to, and 60 million transactions were handled by, the
national 800-number. Callers had to wait over 4 minutes for their calls to be answered
and experienced a busy rate around 8 percent of the time. The volume of transactions
handled by the 800-number is estimated to increase to 64 million by 2010. Without new
and faster tools to answer and resolve caller inquiries, wait times and busy rates are
likely to climb.

Systems Security. SSA’s information security challenge is to understand and mitigate
system vulnerabilities. Weaknesses in controls over physical and logical access to its
electronic information, technical security configuration standards, suitability and
continuity of systems operations have been identified. For example, the Agency’s
control over access to its information was identified as a significant deficiency in
FY 2009. While many of these weaknesses have been resolved, SSA needs to monitor
these issues diligently to ensure they do not recur. This means ensuring the security of
its critical information infrastructure and sensitive data.

SSA Has Taken Steps to Address This Challenge
Physical Infrastructure and Backup and Recovery. To address the existing NCC’s
capacity issues and the need for a more comprehensive recovery capability, SSA began
production at a second processing center, the Durham Support Center, in May 2009.
This facility is a co-processing center. Routine operations are now divided between the
Durham Support Center and the current NCC. Within 2 years, each facility will
continually back up data from the other. This will improve operational capacity and data
security for a period of time. The Durham Support Center will also assist SSA with its
workloads while the new NCC is being designed and constructed. SSA has also
initiated the Accelerated Disaster Recovery Exercise project, which will result in the
execution of a disaster recovery exercise at the Durham Support Center in FY 2010.

Processing Systems and Databases. SSA’s strategy is to move toward seamless
and integrated processing by replacing all external and internal applications over the
next 10 years. Seamless and integrated processing would result in users having one
entry point for all applications without requiring that they go back and forth between
systems to process multiple applications and forms. SSA’s data input and collection
process would also have a standard look and collection point.

SSA also initiated a Self-Help electronic services pilot to assist with the increase in
retirement and disability claims SSA is experiencing in its field offices. SSA’s Self-Help
process provides computers that field office visitors can use to apply for retirement and
disability benefits, request benefit verification, perform a change of address, appeal a
disability decision, and more.


FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                 15
Furthermore, it is crucial for SSA to ensure availability and performance of its program
databases. The Agency’s databases maintain demographic, earnings, and benefit
information on almost every American, which is critical in determining issues of eligibility
and benefit payment amount. SSA is converting its major program databases from
MADAM to an industry-standard, modern database management system to ensure
continuity of operations and provide more functionality and flexibility for future
workloads. This conversion involves changes to the current database structure. These
enhancements will take several years to complete.

Telephone Service. SSA is addressing the need to improve its telephone operations.
In March 2008, it awarded a $300 million contract to build a Voice over Internet Protocol
(VoIP) telephone system for about 1,600 field offices. VoIP will allow SSA to fully
integrate its telephone system and data network. Thus, VoIP will provide faster call
routing to any geographic location, the ability for calls to follow the users between
locations across the network, and quicker access to caller information.

Additionally, SSA is working to award the Citizen Access Routing Enterprise 2020
contract, which will replace the expiring National 800 Number Network and Call Center
Network Solution contracts. The Citizen Access Routing Enterprise 2020 contract will
result in a single contract to provide Interactive Voice Recognition automation and call
center agent services via SSA’s National Toll Free Number.

Systems Security. SSA has addressed systems security in a variety of ways. For
example, it created a Critical Infrastructure Protection work group to address
compliance with various directives, such as the Homeland Security Presidential
Directives and the Federal Information Security Management Act of 2002. Additionally,
SSA placed guidance on its Intranet site on how to properly protect personally
identifiable information. Lastly, SSA is in the process of acquiring a second, fully
functional, co-processing data center to minimize the risks associated with having a
single, national computing facility.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                 16
      Strengthen the Integrity and Protection of the Social
                       Security Number
In FY 2009, SSA issued approximately 18 million Social Security number (SSN) cards
and received approximately $668 billion in employment taxes related to earnings under
assigned SSNs. Protecting the SSN and properly posting the wages reported under
SSNs are critical to ensuring eligible individuals receive the full benefits due them.

Since its inception, SSN collection and use has significantly increased nationwide.
These unique nine-digit numbers have become commonly used identifiers and, as such,
valuable as illegal commodities. Over the last decade, SSA made significant strides
strengthening controls in the enumeration process. Additionally, SSA has worked to
better protect SSNs in its records. However, once an SSN is assigned, SSA has little
control over the collection, use, and disclosure of these numbers by external entities.
For example, while the vast majority of wage reports received from employers are
accurate, SSA has had limited success correcting and posting wage reports with
erroneous employee names or SSNs. To better protect these important numbers and
assist SSA in improving the accuracy of its earnings records, we believe Congress and
the Agency should continue seeking measures to limit the collection, use, and
disclosure of SSNs—in addition to other measures discussed below.

We commend the Agency for the numerous improvements in its enumeration process.
Nevertheless, we continue to have concerns regarding SSN assignment and protection.
For example, the Agency has no authority to curb the unnecessary collection and use of
SSNs. Our audit and investigative work has taught us that the more SSNs are
unnecessarily used, the higher the probability they could be used to commit crimes
throughout society. We are also concerned that some noncitizens who are authorized
to work by the Department of Homeland Security (DHS), but will only be in the United
States for a few months, are permitted to obtain SSNs that are valid for life.

We also remain concerned with SSA’s plans to expand the Enumeration at Entry
process to other classes of noncitizens until it implements significant improvements we
recommended in two audit reports issued in 2005 and 2008, respectively. For example,
to prevent the issuance of multiple SSNs to noncitizens who apply through both
Enumeration at Entry and at an SSA field office, we recommended that SSA implement
systems changes to propagate alien registration numbers to the Numidents of all
immigrant applicants. Once propagated, we encouraged SSA to enhance system edits
to include a search on these numbers rather than through its current methods, which
have not always prevented and/or identified multiple SSNs assigned to the same
individual. According to SSA, in 2010, the Agency will devote resources to modify its
“enumeration scoring routines” to include a check of the alien registration number. We
are encouraged by these plans, but believe SSA should defer expansion of
Enumeration at Entry until these system changes are implemented.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)            17
Finally, SSA is devoting resources to develop an on-line system for issuing replacement
Social Security cards. While we support the Agency’s decision to offer more services
on-line to enhance customer service, we are concerned about the potential for
unscrupulous individuals to manipulate such a system. As such, we encourage the
Agency to proceed carefully with this initiative and support its decision not to pursue this
initiative until proper authentication controls are in place.

Maintaining the integrity of the SSN and Social Security programs also involves properly
posting earnings reported under SSNs. Accurate earnings records are used to
determine both the eligibility for Social Security benefits and the amount of those
benefits. SSA spends scarce resources correcting earnings data when incorrect
information is reported. The Earnings Suspense File (ESF) is the Agency’s record of
annual wage reports for wage earners whose names and SSNs cannot be matched to
SSA’s records. As of October 2009, the ESF had accumulated approximately
296 million wage items for Calendar Years (CY) 1937 through 2007, representing about
$836 billion in wages. Our review of ESF data compared to the total wages reported by
employers showed the ESF continued to grow in both real and relative terms from
CY 1999 through CY 2006. In CY 1999, the ESF represented about 3.4 percent of total
reported wage items and grew to 4.3 percent by CY 2006.

While SSA cannot control all the factors associated with erroneous wage reports, it can
improve wage reporting by informing employers about potential SSN misuse (the use of
an SSN by someone other than the SSN holder for work purposes), identifying and
resolving employer reporting problems, encouraging greater use of the Agency’s
employee verification programs, and enhancing the employee verification feedback to
provide employers with additional information on potential employee issues. For
example, SSA should ensure that feedback provided to employers using its Employee
Verification Service and Social Security Number Verification Service (SSNVS) programs
is consistent in terms of name/SSN matches and death indicator responses. SSA can
also improve coordination with other Federal agencies with separate, yet related,
mandates.

SSA Has Taken Steps to Address This Challenge
SSA has implemented numerous improvements in its enumeration process. We
acknowledge that with these new procedures/requirements, the enumeration workload
has increased in complexity for SSA personnel and resulted in some difficulties or
delays for SSN applicants. Despite these challenges, we believe SSA’s improved
procedures have reduced its risk of improperly assigning these important numbers.
Some of SSA’s more notable enumeration improvements include (1) verifying the
authenticity of most immigration and birth records submitted with original SSN
applications; (2) establishing the Enumeration at Birth and Entry programs, both of
which reduce SSA’s reliance on documents that could be counterfeited; (3) opening a
number of Social Security Card Centers that focus exclusively on assigning SSNs and
issuing SSN cards; and (4) improving its enumeration systems, which assist employees
in complying with SSN assignment regulations and policies.


FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                 18
SSA has also taken steps to reduce the size and growth of the ESF. The Agency has
issued annual Social Security Statements, increased its electronic wage reporting,
expanded the use of its verification program SSNVS, and continued to support DHS in
administering the E-Verify program.

Issued Annual Social Security Statements: The Agency issues annual Social
Security Statements to individuals so they can review their earnings records for
accuracy and completeness. SSA mails the Statements to all workers age 25 and older
who are not yet receiving Social Security benefits. In FY 2009, SSA issued about
151 million Social Security Statements.

Increased Electronic Wage Reporting: SSA has been working to eliminate paper
wage reports while migrating to an electronic earnings record process because paper
wage reports are more error-prone, labor intensive, and expensive to process. SSA
encourages employers to use Business Services Online to file Wage and Tax
Statements (Forms W-2) for their employees electronically. From January through
September 2009, SSA processed over 197 million Form W-2s electronically.

Expanded Use of SSNVS: SSA has been working with the business community to
encourage additional employers to use SSNVS. SSNVS allows employers to
determine, almost instantaneously, if an employee’s reported name and SSN match
SSA’s records. Increased use of SSNVS helps minimize fraud and improves the
accuracy of individuals’ earnings records. For FY 2009, SSNVS processed about
99.2 million verifications for approximately 40,000 registered employers.

Collaborated with DHS: SSA has continued to support E-Verify, a DHS program that
allows employers to electronically verify whether newly hired employees are authorized
to work in the U.S. under immigration law. With SSA’s assistance, DHS has made
program improvements. For example, in September 2007, E-Verify's Photo Screening
Tool was implemented, which allows employers to check the photograph on his or her
new hire's Employment Authorization Document or Permanent Resident Card against
the 15 million images stored in DHS immigration databases. Further, the Photo
Screening Tool helps employers identify instances of identity theft in the employment
eligibility process. In addition, in February 2009, DHS began incorporating passport
data into E-Verify to help verify citizenship status information in the event of a mismatch
with SSA for citizens who present a U.S. passport during the Employment Eligibility
Verification (Form I-9) process.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                19
              Improve Transparency and Accountability
In a January 21, 2009 memorandum to the heads of Executive Departments and
Agencies, the President noted that Government should be transparent since it promotes
accountability and provides information for citizens about what their Government is
doing. Transparency is characterized by visibility or accessibility of information.
Accountability is an obligation to accept responsibility for one’s actions.

Transparency: While information on SSA programs and performance is available
publicly, improvements can be made to increase the level of transparency. SSA has
developed Strategic Plans, Annual Performance Plans (APP), and Performance and
Accountability Reports that provide the public information on the Agency’s mission,
strategic priorities, and operational performance. While these Plans and Reports are
accessible on SSA’s Website, they can be improved. SSA’s APP contains some
performance measures that are unclear and do not provide a meaningful assessment of
SSA’s performance. For example, the performance measure “Update the medical
Listing of Impairments” does not provide an understanding of the purpose of updating
the listing or why it is important for the Agency to do so. As another example, SSA has
the performance measure, “Process the budgeted number of Supplemental Security
Income non-disability redeterminations.” This output-based performance measure does
not provide an understanding of the impact or goal of redeterminations. It is difficult to
determine the value of redeterminations by just knowing how many SSA plans to
complete.

As another example, SSA’s various performance measures of the disability claims
process do not provide a meaningful assessment of the waiting time involved from a
claimants’ perspective. The Agency lacks a performance measure that details the
cumulative time a claimant waits through the entire disability process. SSA only
measures different portions of the process a claimant may experience. For example,
SSA has a performance measure, “Achieve the budgeted goal for average processing
time for hearings,” with a goal of 516 days in FY 2009. While 516 days seems like a
long time to wait for a decision after a request for a hearing, the time it would take a
claimant to get from the initial application for disability benefits to the time a request for
a hearing is disposed of is actually much longer. When a claimant’s request for a
hearing is disposed of, he or she has already waited through the time it took for the
initial decision to be made by a DDS and a reconsideration by the DDS of its initial
decision. When these parts of the process are added cumulatively, as the claimant
experiences the process, a claimant may wait 811 days, or 2.2 years, from the initial
application to receipt of a decision. The actual time an applicant spends waiting for a
decision at the hearing stage is far greater than the 516-day goal suggested by SSA.

SSA’s public planning documents also lack meaningful performance measures that
address its efforts to improve its outmoded and inefficient IT infrastructure. For
example, while SSA’s Strategic Plan states that all the Agency’s plans depend on a
strong 21st century data center to replace the aged NCC, neither the Strategic Plan nor
the APP contains a corresponding performance measure to help the public track SSA’s



FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                    20
progress in constructing a new data center. Similarly, SSA states in its Strategic Plan
that its IT infrastructure is resting on a foundation of aging computer programs, which
will make it difficult to implement new business processes and service delivery models
unless it makes necessary updates now. While SSA identifies this as a critical workload
to provide the service models needed to meet an increasing demand, it does not have a
performance measure that tracks its progress in updating its computer programs.

Accountability: Sound internal controls help ensure the Agency is accountable to its
mission and relevant laws, regulations, and policies. Internal control comprises the
plans, methods and procedures used to meet missions, goals and objectives. OMB
Circular A-123, Management's Responsibility for Internal Control, requires that SSA
develop and implement cost-effective internal controls for results-oriented management.

In the most recent audit of SSA’s financial statements, the Office of the Inspector
General noted a significant deficiency within SSA’s internal controls. SSA management
was unable to consistently provide documented evidence that security accesses were
reviewed by management to determine that the system datasets, transactions, and
resources for mainframe hosted applications, including financially significant systems
and related tools, were in-line with the concept of least privilege. To more fully protect
SSA from risks associated with the loss of data, loss of other resources, or
compromised privacy of information associated with SSA’s enumeration, earnings,
retirement, and disability processes and programs, SSA management must further
strengthen its security program. Further progress is needed in the area of access
assignments to application systems data and programs by SSA personnel.

SSA has other internal control challenges as well. As SSA changes or implements
programs, the controls over these programs need to be reviewed and changed to
ensure the Agency is accountable and its programs meet their stated purposes. For
example, in FY 2009, SSA sent ERPs as part of its implementation of ARRA. When
initially implementing the program, SSA’s related policies and procedures over the
ERPs were not fully developed. A policy was not initially established for ERPs issued to
deceased beneficiaries and representative payees who died after SSA’s certification,
but before the receipt of payments. Also, there were reports that SSA sent stimulus
checks to 1,700 inmates who should not have received them because they were
incarcerated.

As part of its efforts to be accountable, SSA must ensure its contractors provide the
services for which they are contracted efficiently and effectively. SSA enters into a
number of contracts and provides a number of grants that help SSA obtain services and
research, such as the development and the implementation of demonstration projects,
digital document services, and research on disability and retirement issues. In FY 2009,
SSA spent over $1.2 billion on contracts and grants. To help ensure SSA receives the
services for which it pays, it needs to establish a greater degree of management
oversight by strengthening contract and grant oversight roles and responsibilities, and
more clearly defining contractor requirements.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)               21
SSA Has Taken Steps to Address This Challenge
SSA has taken steps to bring greater transparency and accountability to its operations.
The Agency has continually revised its performance measures and goals to provide the
public an indication of its performance. While some measures and goals need to be
improved, like those discussed on page 20 of this report, we note the Agency has a
tradition of publicly reporting on its performance.

The Agency will have an additional opportunity to improve its transparency and
accountability in the near future. For example, ARRA calls for the uses of all ARRA
funds to be transparent to the public, and the public benefits of these funds should be
reported clearly, accurately, and timely. Also, the President’s memorandum on
openness and transparency charged the U.S. Chief Technology Officer, together with
OMB and the General Services Administration, with creating recommendations for an
OMB Directive on open Government. SSA will need to implement this policy once the
Directive is finalized and released, which is anticipated in the near future. The Directive
will help define the level of openness expected Government wide and within SSA, which
should help to improve the level of transparency and accountability within the Agency.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                22
                                          Appendices
APPENDIX A – Acronyms

APPENDIX B – Related Office of the Inspector General Reports

APPENDIX C – Office of the Inspector General Contacts




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)
                                                                       Appendix A

Acronyms
 ALJ              Administrative Law Judge
 APP              Annual Performance Plan

 ARRA             American Recovery and Reinvestment Act of 2009
 CDI              Cooperative Disability Investigations
 CDR              Continuing Disability Review
 CY               Calendar Year
 DDS              Disability Determination Services
 DHS              Department of Homeland Security
 DI               Disability Insurance
 ERP              Economic Recovery Payments
 eServices        Electronic Services
 ESF              Earnings Suspense File
 FY               Fiscal Year
 IT               Information Technology
 MADAM            Master Data Access Method
 NCC              National Computer Center

 OASI             Old-Age and Survivors Insurance
 OASDI            Old-Age, Survivors and Disability Insurance
 ODAR             Office of Disability Adjudication and Review
 OIG              Office of the Inspector General
 OMB              Office of Management and Budget
 Pub. L. No.      Public Law Number
 QDD              Quick Disability Determinations
 SSA              Social Security Administration
 SSI              Supplemental Security Income
 SSN              Social Security Number

 SSNVS            Social Security Number Verification Service

 Treasury         Department of the Treasury
 VoIP             Voice over Internet Protocol



FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)
                                                                       Appendix B

Related Office of the Inspector General Reports
  Re p o rt Title a n d Co m m o n Id e n tific a tio n Nu m b e r     Re p o rt Is s u e d
                 Implement the American Recovery and Reinvestment
                            Act Effectively and Efficiently
Funding for Health Information Technology Under the American
                                                             July 31, 2009
Recovery and Reinvestment Act of 2009 (A-01-09-29155)
Administrative Expenses Incurred to Provide Economic
                                                                     July 1, 2009
Recovery Payments (A-06-09-29144)
The Social Security Administration’s Information Technology
                                                                     June 29, 2009
Strategic Planning (A-44-09-29120)
Social Security Administration's Disaster Recovery Process
                                                                     June 5, 2009
(Limited Distribution) (A-14-09-29139)
Economic Recovery Payments for Social Security and
                                                                     May 15, 2009
Supplemental Security Income Beneficiaries (A-09-09-29143)
Impact of State Employee Furloughs on the Social Security
                                                                     March 27, 2009
Administration’s Disability Programs (A-01-09-29137)
The Social Security Administration's Ability to Address Future
Processing Requirements (Limited Distribution)                       March 16, 2009
(A-44-09-19098)




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                B-1
  Re p o rt Title a n d Co m m o n Id e n tific a tio n Nu m b e r     Report Issued

              Reduce the Hearings Backlog and Prevent its Recurrence

Aged Claims at the Hearing Level (A-12-08-18071)                      September 25, 2009

Office of Disability Adjudication and Review Management
                                                                      August 3, 2009
Information (A-07-09-29162)

Electronic File Assembly (A-07-09-19069)                              June 26, 2009

Physical Security at the Office of Disability Adjudication and
Review’s Headquarters Building (Limited Distribution)                 March 26, 2009
(A-12-08-18072)

Customer Service Issues at the Dover Hearing Office
                                                                      October 27, 2008
(A-12-08-28080)




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)              B-2
  Re p o rt Title a n d Co m m o n Id e n tific a tio n Nu m b e r     Report Issued

             Improve the Timeliness and Quality of the Disability Process

Indirect Costs Claimed by the New Mexico Disability
                                                                     September 30, 2009
Determination Services (A-06-09-19122)

Administrative Costs Claimed by the Michigan Disability
                                                                     September 30, 2009
Determination Services (A-05-08-18017)

Impact of the Social Security Administration’s Claims Process
                                                                     September 4, 2009
on Disability Beneficiaries (A-01-09-29084)
Administrative Costs Claimed by the Massachusetts Disability
                                                                     August 26, 2009
Determination Services (A-01-09-19035)

Follow-up: The Social Security Administration's Implementation
of Program Operations Manual System Security Requirements            May 27, 2009
for Disability Determination Services (A-14-08-18076)

National Rollout of Quick Disability Determinations
                                                                     May 13, 2009
(A-01-09-19030)
Administrative Costs Claimed by the Utah Disability
                                                                     March 30, 2009
Determination Services (A-07-09-19005)
The Social Security Administration’s Listing of Impairments
                                                                     March 27, 2009
(A-01-08-18023)
Administrative Costs Claimed by the Pennsylvania Bureau of
                                                                     March 19, 2009
Disability Determination (A-15-09-19021)
Administrative Costs Claimed by the Kentucky Disability
                                                                     February 20, 2009
Determination Services (A-08-08-18059)
Indirect Costs Claimed by the Texas Disability Determination
                                                                     January 26, 2009
Services (A-06-08-18092)

Disability Claims Overall Processing Times (A-01-08-18011)           December 19, 2008




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)               B-3
   Re p o rt Title a n d Co m m o n Id e n tific a tio n Nu m b e r     Report Issued

         Reduce Improper Payments and Increase Overpayment Recoveries

Spouses’ to Widow(er)s’ Benefits when Government Pensions
                                                                      September 30, 2009
Are Involved (A-13-08-28103)

The Social Security Administration’s Compliance with Certain
Evidence Requirements that Restrict Noncitizens’ Eligibility for      September 25, 2009
Title II Benefits (A-08-09-19108)

Improper Payments Resulting from Unresolved Delayed
                                                                      September 25, 2009
Claimants (A-09-08-18006)

Supplemental Security Income Overpayments to Concurrent
Beneficiaries Resulting from Incorrect Benefit Calculations           September 24, 2009
(A-06-09-29103)

Controls over "Special Payment Amount" Overpayments for
                                                                      September 23, 2009
Title II Beneficiaries (A-09-09-29011)

Individuals Receiving Multiple Old-Age, Survivors and Disability
                                                                      September 17, 2009
Insurance Benefits (A-01-08-28048)

Follow-up: The Social Security Administration's Controls over
                                                                      September 3, 2009
the Title XVI Overpayment Waiver Process (A-06-08-18078)

Follow-up: The Social Security Administration’s Controls over
Suspending Collection Efforts on Title XVI Overpayments               September 2, 2009
(A-04-09-19039)

Controls over Title XVI Immediate Payments (A-04-09-19104)            September 2, 2009

Controls over Recording Supplemental Security Income
                                                                      August 25, 2009
Overpayments (A-01-09-19126)

Follow-up on the Social Security Administration’s Prisoner
                                                                      August 20, 2009
Incentive Payment Program (A-01-09-19029)
The Social Security Administration’s Unprocessed Annual
                                                                      August 3, 2009
Earnings Enforcement Selections (A-09-08-18047)
Improper Payments Report (A-15-09-29125)                              July 23, 2009




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)               B-4
   Re p o rt Title a n d Co m m o n Id e n tific a tio n Nu m b e r      Report Issued

Disabled Beneficiaries Hiding Wages (A-15-07-17088)                   July 16, 2009

Supplemental Security Income Recipients with Unreported
                                                                      July 15, 2009
Vehicles (A-02-08-28038)

Supplemental Security Income Redeterminations
                                                                      July 14, 2009
(A-07-09-29146)

Supplemental Security Income Eligibility of Refugees
                                                                      July 10, 2009
(A-02-09-29001)

Benefit Payments Mailed to Post Office Boxes (A-06-08-18097)          July 2, 2009

Benefits Paid to Title II Beneficiaries with a Child-in-Care
                                                                      June 26, 2009
(A-01-09-29070)

Payments to Individuals Whose Numident Record Contains a
                                                                      June 26, 2009
Death Entry (A-06-08-18095)

Processing of Railroad Worker Disability Claims
                                                                      May 12, 2009
(A-05-09-29119)

Follow-up on Disabled Title II Beneficiaries with Earnings
                                                                      April 15, 2009
Reported on the Master Earnings File (A-01-08-28075)

Effectiveness of Title XVI Installment Agreements
                                                                      February 10, 2009
(A-02-09-29007)

Payments to Spouses Eligible for Higher Retirement Benefits
                                                                      December 16, 2008
(A-09-08-18007)




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)                 B-5
 Re p o rt Title a n d Co m m o n Id e n tific a tio n Nu m b e r      Re p o rt Is s u e d

                               Improve Customer Service

Organizational Representative Payee Serving as an Individual
Representative Payee in Philadelphia, Pennsylvania                    September 23, 2009
(A-03-09-29094)

Follow-up: Concurrent Title II and XVI Beneficiaries Receiving
                                                                      August 20, 2009
Representative Payee and Direct Payments (A-09-09-19019)

Characteristics of Representative Payees That May Increase
                                                                      August 20, 2009
the Risk of Benefit Misuse (A-09-08-38055)

Probation or Parole Violators Serving as Representative
                                                                      August 19, 2009
Payees (A-01-09-29112)

Individual Representative Payees Serving Multiple Beneficiaries
                                                                      July 31, 2009
(A-13-08-28089)

Salina Emergency-Aid Food Bank, A Fee-for-Service
Representative Payee for the Social Security Administration           July 29, 2009
(A-07-09-19065)

The Social Security Administration’s Oversight of
                                                                      June 29, 2009
Representative Payees (A-13-09-29141)

Establishment of Dedicated Accounts (A-13-08-28122)                   May 26, 2009

Florida's Title IV-E Waiver May Impact Supplemental Security
                                                                      May 26, 2009
Income Benefits (A-04-09-19091)

Fugitive Felons Serving As Representative Payees
                                                                      March 31, 2009
(A-01-08-18021)

Individual Volume Representative Payee in Hartford,
                                                                      November 4, 2008
Connecticut (A-15-08-28093)




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)               B-6
 Re p o rt Title a n d Co m m o n Id e n tific a tio n Nu m b e r       Re p o rt Is s u e d
               Invest in Information Technology Infrastructure to Support
                              Current and Future Workloads
Implementation of the Social Security Administration’s Security
                                                                    September 30, 2009
Performance Metrics Program (A-14-10-11002)
Processing Capacity of the Social Security Administration’s
                                                                    September 30, 2009
Durham Support Center (A-14-09-19100)

Self-Help Personal Computer Pilot (A-14-10-11001)                   September 30, 2009

Follow-up: The Social Security Administration's Computer
                                                                     September 24, 2009
Security Program Compliance (A-14-09-19048)
Protecting Personally Identifiable Information on the Social
                                                                     August 19, 2009
Security Administration’s Intranet Sites (A-12-09-29118)
Follow-up: The Social Security Administration’s Electronic Mail
                                                                     June 22, 2009
Security Review (A-14-09-19044)

Access to Personally Identifiable Information Available in the
LexisNexis Total Research System (Limited Distribution)              May 29, 2009
(A-07-09-19059)
Accuracy of the Social Security Administration’s Required
Certification of Fiscal Year 2007 Procurement Data
                                                                     April 15, 2009
Submissions to Federal Procurement Data System - Next
Generation (A-15-08-28107)




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)               B-7
  Re p o rt Title a n d Co m m o n Id e n tific a tio n Nu m b e r     Re p o rt Is s u e d

       Strengthen the Integrity and Protection of the Social Security Number

Effectiveness of Special Indicator Codes on The Social Security
                                                                     August 26, 2009
Administration’s Numident File (A-08-09-19099)
Consent Based Social Security Number Verification Program
                                                                     July 10, 2009
(A-03-08-18067)
Accuracy of the Help America Vote Verification Program
                                                                     June 22, 2009
Responses (A-03-09-29115)
The Social Security Administration's Wage Reconciliation
                                                                     June 16, 2009
Process with the Internal Revenue Service (A-03-08-18069)
Potential Social Security Number Misuse in Certain Unique
                                                                     May 26, 2009
Populations (A-08-08-28060)
Management Advisory Report: R-1 Religious Workers' Use of
                                                                     March 9, 2009
Social Security Numbers (A-08-08-18079)

Assignment of Social Security Numbers to Individuals in the
Commonwealth of the Northern Mariana Islands and American            February 25, 2009
Samoa (A 08-08-18098)

Sources of Erroneous Death Entries Input into the Death Master
                                                               February 4, 2009
File (A-06-09-29095)
Earnings Records with Multiple Employer Identification
                                                                     January 5, 2009
Numbers (A 08-08-18002)
Effectiveness of Educational Correspondence to Employers
                                                                     December 15, 2009
(A-03-07-17105)




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)               B-8
  Re p o rt Title a n d Co m m o n Id e n tific a tio n Nu m b e r     Re p o rt Is s u e d

                  Improve Transparency and Accountability

University of Michigan Retirement Research Center
                                                                     September 30, 2009
(A-02-09-19081)

Costs Claimed by the Association of University Centers on
Disabilities’ Termination and Final Closeout of Contract Number      September 2, 2009
SS00-06-60074 (Limited Distribution) (A-15-09-29121)

Field Office Procedures for Charging and Collecting Fees
                                                                      August 28, 2009
(A-04-09-19041)

Management Advisory Report: Single Audit of the
Commonwealth of Puerto Rico, Department of the Family, for            August 20, 2009
the Fiscal Year Ended June 30, 2007 (A-77-09-00012)

Myers Investigative and Security Services Contract
                                                                      August 17, 2009
(Limited Distribution) (A-08-09-19107)

Management Advisory Report: Single Audit of the
Commonwealth of Puerto Rico, Department of the Family, for            August 5, 2009
the Fiscal Year Ended June 30, 2006 (A-77-09-00011)

Congressional Response Report: Opportunities and Challenges
                                                                      April 30, 2009
for the Social Security Administration (A-08-09-29152)

Management Advisory Report: Single Audit of the State of Maine
                                                                      March 26, 2009
for the Fiscal Year Ended June 30, 2007 (A-77-09-00010)

Management Advisory Report: Single Audit of the State of
Illinois for the Fiscal Year Ended June 30, 2007                      March 26, 2009
(A-77-09-00009)

Management Advisory Report: Single Audit of the
Commonwealth of Pennsylvania for the Fiscal Year Ended                March 19, 2009
June 30, 2007 (A-77-09-00007)

Management Advisory Report: Single Audit of the State of New
                                                                      March 17, 2009
York for the Fiscal Year Ended March 31, 2007 (A-77-09-00008)




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)               B-9
  Re p o rt Title a n d Co m m o n Id e n tific a tio n Nu m b e r     Re p o rt Is s u e d

Contract for the Benefit Offset National Demonstration Project
                                                                      March 12, 2009
with Abt Associates, Incorporated (A-05-08-18041)

Social Security Administration Employees Who Were Absent
                                                                      February 18, 2009
Without Leave (A-15-09-29076)

Management Advisory Report: Single Audit of the State of
Montana for the 2-Year Period Ended June 30, 2007                     February 4, 2009
(A-77-09-00006)

Follow-up: The Social Security Administration's Procedures for
                                                                      January 20, 2009
Addressing Employee-related Allegations (A-13-08-18077)

Costs Claimed by the Virginia Commonwealth
                                                                      January 5, 2009
University Contract Number SS00-04-60097 (A-15-09-29064)

The Social Security Administration’s Oversight of MDRC                December 22,
Contract No. SS00-06-60075 (A-15-08-18010)                           2008

Management Advisory Report: Single Audit of the
                                                                      December 18,
Commonwealth of Virginia for the Fiscal Year Ended June 30,
                                                                     2008
2007 (A-77-09-00005)

                                                                      December 18,
Federal Protective Service Basic Security Fee (A-15-08-28125)
                                                                     2008
Management Advisory Report: Single Audit of the State of Texas
                                                                November 21,
for the Fiscal Year Ended August 31, 2007
                                                               2008
(A-77-09-00004)

Contract with Lockheed Martin Government Services, Inc., for          November 20,
Digital Imaging Services (A-04-08-18066)                             2008

Fiscal Year 2008 Financial Statement Audit Oversight
                                                                      November 7, 2008
(A-15-08-18087)

Fiscal Year 2008 Inspector General Statement on the Social
Security Administration's Major Management and Performance            November 5, 2008
Challenges (A-02-09-19074)




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)              B-10
  Re p o rt Title a n d Co m m o n Id e n tific a tio n Nu m b e r     Re p o rt Is s u e d
Management Advisory Report: Single Audit of the
Commonwealth Of Massachusetts for the Fiscal Year Ended               November 5, 2008
June 30, 2007 (A-77-09-00003)
Management Advisory Report: Single Audit of the State of
Washington for the Fiscal Year Ended June 30, 2007                    October 3, 2008
(A-77-09-00002)

Management Advisory Report: Single Audit of the State of
Minnesota for the Fiscal Year Ended June 30, 2007                     October 2, 2008
(A-77-09-00001)




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)              B-11
                                                                       Appendix C

Office of the Inspector General Contacts

Brian Karpe, Director                         Implement the American Recovery and
                                              Reinvestment Act Effectively and
                                              Efficiently
                                              Invest in Information Technology
                                              Infrastructure to Support Current and
                                              Future Workloads
Walter Bayer, Director                        Reduce the Hearings Backlog and Prevent
                                              its Recurrence
Mark Bailey, Director                         Improve the Timeliness and Quality of the
                                              Disability Process
Ron Gunia, Director                           Reduce Improper Payments and Increase
Judith Oliveira, Director                     Overpayment Recoveries
Jim Klein, Director                           Improve Customer Service
Shirley Todd, Director
Kim Byrd, Director                            Strengthen the Integrity and Protection of
Cylinda McCloud-Keal, Director                the Social Security Number

Tim Nee, Director                             Improve Transparency and Accountability
Victoria Vetter, Director


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-02-09-19175.




FY 2009 IG Statement on SSA’s Major Management Challenges (A-02-09-19175)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
